<html>
<title> - REINFORCING THE U.S.-TAIWAN RELATIONSHIP</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                REINFORCING THE U.S.-TAIWAN RELATIONSHIP

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2018

                               __________

                           Serial No. 115-147

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                                
                                 __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-813PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4b5c436c4f595f584449405c024f434102">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                               ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Mark Stokes, executive director, The Project 2049 Institute..     8
Mr. Julian Ku, Maurice A. Deane Distinguished Professor of 
  Constitutional Law, Maurice A. Deane School of Law, Hofstra 
  University.....................................................    22
Ms. Tiffany Ma, senior director, BowerGroupAsia..................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     3
Mr. Mark Stokes: Prepared statement..............................    11
Mr. Julian Ku: Prepared statement................................    24
Ms. Tiffany Ma: Prepared statement...............................    37

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Ted S. Yoho: Statement by Shirley Kan, retired 
  Specialist in Asian Security Affairs...........................    62
The Honorable Ann Wagner, a Representative in Congress from the 
  State of Missouri:
  Written responses from Mr. Julian Ku to questions submitted for 
    the record...................................................    66
  Written responses from Ms. Tiffany Ma to questions submitted 
    for the record...............................................    67
  Questions submitted for the record to Mr. Mark Stokes..........    69
Written responses from Ms. Tiffany Ma to questions submitted for 
  the record by the Honorable Dina Titus, a Representative in 
  Congress from the State of Nevada..............................    70

 
                REINFORCING THE U.S.-TAIWAN RELATIONSHIP

                              ----------                              


                        TUESDAY, APRIL 17, 2018

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. The hearing will come to order and good afternoon 
and thank you for being here today. It is a great pleasure to 
convene the subcommittee to discuss U.S.-Taiwan relations, a 
partnership that enjoys broad bipartisan support. As the State 
Department has said, Taiwan is a force for good in the world, a 
beacon of democracy. Indeed, Taiwan is a critical security 
partner and an exemplar of democracy and human rights in a 
region short on both. It is the United States' tenth largest 
trading partner, and I might add it is our sixth largest 
agricultural export market. And it is so vital to the trade 
that we have in this country.
    Taiwan's success is a potent rebuttal to authoritarian, 
revisionist powers that are attempting to undermine the primacy 
of democracy and upend the global order that has given us peace 
and prosperity since the days of World War II. Taiwan's example 
is all the more important as China recommits to one 
totalitarianism under Xi Jinping.
    In recent months, Xi has justified taking lifelong power by 
arguing that he is the only figure who can accomplish China's 
so-called rejuvenation. Reunifying Taiwan peacefully or 
otherwise would be a key part of this accomplishment and it 
seems likely Xi will force this issue within his lifetime. In 
the South China Sea last week he conducted the largest show of 
maritime force in China's history and this week he will double 
down on his intimidation with live-fire exercises in the Taiwan 
Strait. Xi Jinping wants Taiwan to be subjugated under his rule 
and is making concerted efforts to accomplish this result. As 
he pressures the U.S.-Taiwan partnership, we will have to 
reinforce our ties. Congress has always led on Taiwan affairs 
and it will be incumbent on Congress to continue our 
leadership.
    Chairman Chabot's Taiwan Travel Act, who incidentally used 
to chair this committee, became law last month and is a shining 
example of how Congress can do this. This bill helps break down 
self-imposed restrictions on contact with Taiwan that are not 
required by our policy and have hindered our bilateral 
relations. The House has also passed my own legislation, H.R. 
3320, to promote Taiwan's participation at the WHA or the World 
Health Assembly.
    Taiwan's exclusion from the summit despite being a model 
contributor to world health shows that Beijing is willing to 
put the world at risk to satisfy its own pettiness and 
insecurities. I hope the Senate will act on this legislation 
quickly as the World Health Assembly will meet again next 
month. Taiwan has made major contributions in the field of 
global health including making significant breakthroughs during 
the SARS epidemic and providing critical support during the 
2014 Ebola crisis.
    In this Congress, I have also introduced measures to 
support a U.S.-Taiwan Free Trade Agreement and support the 
normalization of arms sales to Taiwan, but there is still much 
more work to do. Congressman Chabot's Travel Act touches on a 
creeping problem within U.S.-Taiwan policies. In many areas 
beyond travel and diplomatic contact, the United States 
observes self-imposed restrictions on our conduct, self-censor, 
or allows the ambiguities of U.S.- Taiwan policies to constrain 
our relationships instead of expanding it. This rot has set in 
over decades since the foundations of the One-China Policy when 
they were laid down.
    I am concerned that over the years the executive branch has 
institutionalized a norm of avoiding displeasing Beijing and 
that our diplomats make decisions about Taiwan that are based 
on fear instead of the merits of the U.S.-Taiwan relationship 
itself. It is seen clearly when the State Department delays 
arms sales to avoid angering Beijing or removes the Taiwan's 
flag from its Web site after the PRC diplomats complained.
    I believe that Congress can help to stop this rot and 
reinforce the United States' relationship with Taiwan and I am 
grateful that we have such an expert panel with us today to 
make recommendations on how to accomplish this.
    Ultimately, the U.S. policy on Taiwan is transitory. 
Taiwan's status has been left undefined and must come to a 
resolution eventually. In the Shanghai Communique, the United 
States simply acknowledged that all Chinese on either side of 
the Taiwan Strait maintain there is but one China and that 
Taiwan is part of China. I doubt that such agreement exists 
today. Xi Jinping has his answer. He wants Taiwan to be a 
province of the PRC and is working to make that happen. The 
United States must find its own answer and I look forward to 
searching for it today and get clarification.
    And with that, members present will be permitted to submit 
written statements to be included in the official hearing 
record and, without objection, the hearing record will remain 
open for 5 calendar days to allow statements, questions, and 
extraneous material subject to the rule length. And the 
witnesses' written statements will be entered into the hearing 
record. I thank the witnesses for being here today and I turn 
to the ranking member for any remarks he may have.
    [The prepared statement of Mr. Yoho follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Sherman. Thank you, Mr. Chairman, for holding these 
hearings during my now almost 22 years in Congress. I have been 
a strong supporter of the Taiwan-U.S. relationship. I have 
introduced legislation to supply naval frigates to Taiwan, to 
support Taiwan's entry into the International Police 
Organization, and I joined with Congressman Chabot and our 
chairman Mr. Royce and others in introducing the Taiwan Travel 
Act that is now law.
    Taiwan has 23 million people and $80 billion of trade with 
the United States; the Taiwan Travel Act would encourage 
diplomatic exchanges at the highest levels consistent with this 
Act. We should no longer hesitate to send our Secretary of 
Defense, or Secretary of State, or National Security Advisor to 
Taiwan for better communications in our bilateral relationship. 
And Congress should welcome Taiwan's President or Foreign 
Minister in delivering an address particularly at the 
Presidential level to a joint session of Congress.
    I should point out that that comment relates to the 
President of Taiwan, not the President for life of Taiwan. 
Taiwan does not have a President for life. That is the 
situation in another nearby country. I should also point out 
that I am probably the only Member of Congress that benefits 
from the current craziness that the President of Taiwan visits 
the United States on a refueling stop on the way to a state 
visit to Central America.
    The reason for that is that traditionally the President of 
Taiwan stops for refueling in Los Angeles and comes to the 
Sheraton Universal Hotel in my district, thereby allowing me to 
welcome the President of Taiwan to my district on more 
occasions than would be likely the case under any other 
circumstances. That being said, the Taiwan Travel Act is 
perhaps the only piece of legislation disadvantageous to the 
30th congressional district that I am proud to say is law.
    I am very concerned that China has tried to keep Taiwan out 
of international organizations. We should be helping Taiwan 
gain membership to the World Health Organization, the 
International Civil Aviation Organization, the U.N. Climate 
Change Convention, and INTERPOL. Taiwan's vital contributions 
to the work of these organizations would make the world a 
healthier and safer place.
    In support of such efforts, I joined as an original co-
sponsor to the chairman's bill seeking to give Taiwan observer 
status to the World Health Assembly. Criminals and diseases 
benefit by excluding Taiwan from organizations designed to 
combat crime and disease. And it is hard to think that Beijing 
would work tirelessly to try to support disease and crime, yet 
that is what they are doing by preventing Taiwan from being an 
efficient member of these international organizations.
    I support the Global Cooperation and Training Initiative 
through which Taiwanese expertise helps developing countries in 
areas such as health, the digital divide, gender development 
and humanitarian assistance. As to defense and economics, in 
accordance with the Taiwan Relations Act and the Six Assurances 
we should maintain our arms sales that support Taiwan's 
legitimate defense needs. Such sales also do create jobs here 
in the United States and help maintain our defense industry. 
And we need to seek an increase in Taiwanese investment of the 
United States and U.S. exports to Taiwan of goods and services. 
Currently, we export $26 billion in goods and $12 billion in 
services.
    What is at stake here is our dedication to democracy. 
Taiwan tied several other Asian countries for the highest 
democracy score in an international rating from Freedom House 
and I would say Taiwan does pose a threat to China. That threat 
is one of example. When the people of mainland China see that a 
country sharing the same language can benefit from democracy, 
can benefit from the rule of law and a truly free and vibrant 
economy, then that is a threat not only to China but to all of 
the oppressive regimes around the world.
    So I look forward to deepening our relationship with Taiwan 
and dismissing the silliness that prevents Taiwan from 
participating with the United States and with the rest of the 
world. I yield back.
    Mr. Yoho. I appreciate your comments.
    Next, we will go to Mr. Dana Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
just note that countries, major countries, smaller countries, 
only have one legitimate government. And there is only one 
legitimate government in terms of the Chinese people and it is 
the government in Taiwan.
    The fact is, the government by American standards is only a 
legitimate government if it operates with the consent of the 
governed.
    Mainland China is run by a clique of gangsters who make no 
pretense about democratic rule and permitting opposition 
parties or stamping out anybody who provides any type of 
disagreement with the policy being advocated and performed by 
the clique that runs that country.
    So, yes. If we are looking at what countries have a 
legitimate government, Taiwan is a legitimate government and it 
is occupied, yes, by many Chinese people. But let us note that 
there are Taiwanese people there and that now you have Chinese 
and Taiwanese people on that island of Taiwan operating in 
democratic government.
    So if the United States has to side with anybody, if there 
is a conflict between the gangsters and the clique that are 
pretending to be a government and the real government that 
exists on Taiwan, let us note that that didn't always happen. 
President Lee was a great reformer in Taiwan and he brought 
what was just an anti-Communist group in Taiwan that were 
allied with us in the Cold War, he brought the reforms that 
have made the Government of Taiwan legitimate in our eyes.
    Now as we move in with President Trump's fair trade, that 
is an issue that we have to work with the Taiwanese on and I 
hope that we will be doing that with the spirit of goodwill. 
And while we are doing that let's recognize that the Chinese 
clique in Beijing is engaged in policies and actual practices 
that threaten the peace of the world especially in terms of 
their expansionist policies in building those islands that 
threaten commerce in the Pacific region.
    So with that said, thank you for the hearing, Mr. Chairman, 
I will be looking forward to hearing from the witnesses.
    Mr. Yoho. No, and I really appreciate your comments. And 
before we go to the next statement I want to remind people that 
we are up against a competing committee hearing on Syria and I 
know members will be leaving. I want to let you guys know I am 
going to continue. I am not going to that. I am staying here. 
And feel free to come back or feel free to stay.
    Next, we will go to Mr. Gerry Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and I also thank you 
for this hearing.
    I am proud to serve as one of the co-chairs of the Taiwan 
Caucus. I have gone to Taiwan almost two dozen times in my 
lifetime, starting as an Eisenhower Fellow back in 1988. Three 
points I would make, one, no one should mistake congressional 
interest in protecting and fostering relations with Taiwan. It 
stems from the Taiwan Relations Act which was a congressional 
foreign policy initiative that came from the legislative branch 
in response to an executive branch action with respect to 
normalization with the mainland. So from day one, Congress had 
a particularized interest in Taiwan.
    Secondly, the Chinese Government in the mainland has often 
talked about One China, Two Systems when it came to Hong Kong. 
We now see how hollow some of those promises prove out to be. 
And so if Beijing thinks that sending a signal of confidence--
you can trust in us; see, it works--the opposite is happening. 
And it is having an effect not only in Taiwan with a democratic 
elected government, but also here in the United States. So 
erosion of confidence and assurances with respect to two 
systems, we will respect the democratic one.
    And, finally, the whole issue of the United States 
relations with China, we don't want to go to war with China. We 
don't want to have a hostile relationship with China. We want 
to have a good workman-like relationship. We are competitors, 
but it ought to be within the, you know, normal bounds. Having 
said that, Taiwan could change that and it is very important 
Beijing not miscalculate United States interest and intents 
because that is how trouble starts. That is how conflict 
happens.
    The United States certainly through the expression of its 
legislative branch is not going to be intimidated or threatened 
or manipulated into a relationship or non-relationship with 
Taiwan that is not in our interest. We are going to foster that 
relationship. We are going to grow it. We are going to protect 
it. And I do often fear, Mr. Chairman, that other powers in the 
region could maybe misunderstand that and as a result 
miscalculate. I think both on the Republican and Democratic 
side we wish to reaffirm our strong support for both the 
relationship with Beijing, but also our special relationship 
with Taiwan as codified in the Taiwan Relations Act. I yield 
back.
    Mr. Yoho. Thank you for your comments.
    Next, we will go to Ms. Ann Wagner from Missouri.
    Mrs. Wagner. Thank you, Mr. Chairman, for organizing this 
hearing.
    Taiwan, once an authoritarian country is now one of Asia's 
freest and most democratic, yet Chinese leadership on the 
mainland is keen to demonstrate its power over Taiwan. We have 
seen this time and time again. Tomorrow, the People's 
Liberation Army will conduct the first live-fire drills in the 
Taiwan Strait since 2015. Without active resistance and 
response from Taiwan, the U.S., and allies of democracy across 
the world, China will continue to aggressively undermine 
Taiwan's sovereignty.
    China's behavior toward Taiwan threatens regional stability 
and global democratic values, and I appreciate this committee's 
attention to the challenges that Taiwan faces. Mr. Chairman, I 
have a number of excellent questions that I hope to be able to 
return to ask after the Syria discussion. If not, I shall 
submit them to the record. So I thank you very, very much for 
being here and for your time, Mr. Chairman.
    Mr. Yoho. Thank you for your comments.
    Next, we will go to Mr. Scott Perry from Pennsylvania.
    Mr. Perry. Thanks, Mr. Chairman. I don't often make or 
usually make these opening statements because I like to hear 
from you folks, but some of the things that were said I feel 
like they deserve a response and a clarification.
    Nobody on this dais and nobody in this country that I know 
of wants to be in a world with China, but if it means that we 
must then kowtow and continue to kowtow to China to support a 
free and democratic Taiwan, then we have to do, we are going to 
have to change course somewhere. We can't just simply do what 
China says for fear of some kind of aggressive action. They are 
aggressive. They are a strategic adversary. They are not 
allies. We can do business with them, but let's be really clear 
here, folks.
    China, and the government in China, they are not the 
friends of the United States of America, and in many respects, 
in this man's opinion, they are not the friends of Taiwan. We 
should be supporting those who are most like us, those who are 
more supportive of us, and that is Taiwan. It is not China.
    Mr. Yoho. Thank you for your comments.
    Next, we will go to our panelists. We are thankful to be 
joined today by Mr. Mark Stokes who is executive director at 
the Project 2049 Institute and 20-year United States Air Force 
veteran. We thank you for your service.
    Next, Mr. Julian Ku who is the Senior Associate Dean for 
the Academic Affairs, Faculty Director of International 
Programs, and the Maurice A. Deane Distinguished Professor of 
Constitutional Law at the Maurice A. Deane School of Law at 
Hofstra University; and, Ms. Tiffany Ma who is the Senior 
Director at BowerGroupAsia and a Nonresident Fellow at the 
National Bureau of Asia Research.
    I think you all have been here before, you know how it 
works. There is a button here that says talk. I just hit mine. 
That was a demonstration. And the light will turn green, then 
it will go down to, when you have 1 minute, yellow, and then 
red, and we try to ask you to stay within 5 minutes so that we 
can get on, okay, with the questions.
    Mr. Stokes, if you would start, thank you.

 STATEMENT OF MR. MARK STOKES, EXECUTIVE DIRECTOR, THE PROJECT 
                         2049 INSTITUTE

    Mr. Stokes. Thank you, Mr. Chairman. Esteemed members of 
the subcommittee, it is an honor and pleasure to be here to 
testify before you today alongside my distinguished colleagues.
    I will keep my remarks brief. I would like to start off 
with a statement and that statement is, Taiwan, under its 
current Republic of China Constitution, exists as an 
independent and sovereign state. This is objective reality. It 
is controversial, this language, but this is objective reality 
and complicated for more than one reason. Simply the use of 
that term, Republic of China, ROC in short, is controversial 
not just here in Washington, but certainly in Beijing and 
certainly in some parts, significant parts of Taiwan.
    Just one last point on this. The real dilemma, this 
objective reality is different from our policy. It is a 
separate issue than recognition. Objective reality in the 
existence of a state is separate from the recognition issue. 
And it is a complex policy challenge for the United States to 
somehow bring our policy in line with this objective reality in 
a way that is incremental and preferably does not get anybody 
killed in the process.
    In my written testimony I outline four schools of thought 
that have informed U.S. Cross-Strait policy over the decades 
and presumably could inform U.S. policy going forward; I also 
outline three rationales for why a fundamental examination of 
U.S. policy is warranted; and, finally, outline five sets of 
recommendations.
    In terms of four schools of thought, the first school of 
thought is a combination. This has become more prominent over 
the last decade or so, but accommodation effectively calls for 
bringing U.S. policy in line with Beijing's One-China 
principle, basically that there is one China. There is one 
China, Taiwan is part of China, and the PRC, People's Republic 
of China, is the sole representative of China in the 
international community. And there are different forms as 
accommodation. In its purest form there are calls, or have been 
in the calls, particularly in the 2009 time frame, to at least 
amend the Taiwan Relations Act, specifically the security-
related portions of that and there appeared to be a concerted 
effort to do that.
    The second school of thought is status quo. The status quo 
has guided U.S. policy. It has been by far the dominant school 
of thought since the Taiwan Relations Act. It emphasizes the 
value of the Taiwan Relations Act. It has maintained peace and 
stability in the Asia-Pacific region and has been quite useful 
in serving as the legal basis for U.S. policy. Beijing is not 
happy with the status quo.
    The third school of thought is normalization. The 
normalization school of thought has been around a long time and 
that has been able to separate ourselves from our One-China 
Policy and move toward full normalization of relationship with 
Taiwan. It is straightforward.
    And the fourth school of thought is probably the least 
well-developed, but has a long history particularly in the 
1960s and 1970s, in the early '70s in the context of dual 
representation within the United Nations. And that concept 
roughly is in a non-defined U.S. One-China Policy there is 
nothing that would contradict having normal relations with both 
sides as governments. And that has been, in the past that has 
been--bear in mind that we had normal relations, relatively 
normal relations with both sides of the Taiwan Strait between 
1972 and 1979.
    So those are four schools of thoughts. In terms of some 
broad outlines of recommendations, of sets of recommendations, 
I outline five. The first is that there needs to be a very 
fundamental policy review and an interagency working group set 
up to ask the very, very tough questions. That question should 
be not if, but how the United States can align its policy with 
objective reality. To me that is a critical question, how can 
you best achieve a stable, normal, and constructive 
relationship. And whatever substantive changes are developed, I 
would recommend that they be incremental, coordinated with 
senior government officials on Taiwan, and scrupulously avoid 
getting entangled with domestic politics on Taiwan.
    The second set of recommendations had to do with the legal 
foundations of the Taiwan Travel Act and the Taiwan Relations 
Act and that is that senior-level officials should be 
encouraged to regularly meet with counterparts from the 
Republic of China Government or Taiwan Government on an 
institutionalized basis. And there are all kinds of ways one 
can finesse this issue, other structural issues like, for 
example, considering taking the Office of Taiwan Coordination 
within the State Department and perhaps considering moving that 
to a different part, maybe it is a direct reporting agency 
under the Assistant Secretary of State.
    And then there are others, people to people exchanges, 
formalized, using the one we have with Beijing and using that 
as an example at a very senior level to be able to 
institutionalize a full range of ongoing educational and 
cultural exchanges that we have. Things like supply chain 
security, I think, are worthwhile considering. And then in 
terms on the defense side there is a whole range of things, but 
one of them could be and I think is worthy of considering is a 
public statement that reasserts the Taiwan Strait as 
international waters. Thank you, sir.
    [The prepared statement of Mr. Stokes follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thank you. And before we go to you, Mr. Ku, we 
have had the distinct honor of being joined by the committee 
chairman of the full committee, Mr. Ed Royce, who has done so 
much for foreign policy for this country for around the world 
and especially the Asia-Pacific region. So we have been joined, 
and he has an opening statement.
    Mr. Royce. Well, thank you very much, Chairman, and I 
appreciate again your engagement. I appreciate all these 
members' engagement in Asia and this important hearing on 
Taiwan.
    Over the last several months we have seen a number of 
positive developments in Taiwan in terms of the relationship. 
The Taiwan Travel Act, for which I was the original co-sponsor, 
was signed into law by the President. As we all know, that was 
deeply appreciated by the Taiwanese people. It was a message 
that I heard a number of times when I was in Taipei over the 
Easter recess for meetings with President Tsai and other 
members of her cabinet. I believe that by encouraging more 
frequent visits between our two governments including at the 
highest levels, we will further strengthen the rather critical 
relationship that we have and that is why I make a point as 
chairman to visit Taiwan each year.
    I have also been a champion for strengthening Taiwan's 
economic and people-to-people links from the grassroots level 
on up to the high-level policymaking in Washington. And last 
month, I took the inaugural China Airlines daily, non-stop 
flight from Ontario, California to Taoyuan Airport in Taiwan. 
This was built upon the years of work in supporting linkages 
between the U.S. and Taiwan through the Visa Waiver and Global 
Entry Program in 2012 and in 2017. These programs have 
translated into new growth with travel volume between the U.S. 
and Taiwan increasing with these business visits and people 
visiting families by about 50 percent.
    Most pressing, I think, today in terms of what can be done 
is inclusion at the World Health Assembly meeting next month. 
Over the years, Taiwan has contributed to international efforts 
to improve global health with financial and technical 
assistance. Any of us who have ever been to any one of these 
disaster sites know that Taiwanese physicians are usually the 
first there. We have seen the assistance that comes in and the 
capability, the knowledge. However, it was excluded from the 
meeting last year after 8 consecutive years of being able to 
observe the meetings. Keeping Taiwan out can only hurt global 
health and there should be no question about Taiwan's 
participation this year.
    And over the weekend, the last point I would make is that 
the New York Times ran an article that named Taiwan as the new 
bastion of free speech in Asia. I have seen this with my own 
eyes, the U.S. and Taiwan's shared commitment to principles 
such as human rights, freedom of speech, democratic norms, 
certainly rule of law; all of that serves as a bedrock of this 
partnership that we have.
    So I am glad we are here today to discuss how we can 
reinforce that important relationship. And I thank, again, 
Chairman Yoho and the other members of this committee and I 
look forward to the witnesses' testimony.
    Mr. Yoho. Thank you for those comments and thank you for 
attending.
    Mr. Ku, we will go to you next for your testimony. Thank 
you.

  STATEMENT OF MR. JULIAN KU, MAURICE A. DEANE DISTINGUISHED 
  PROFESSOR OF CONSTITUTIONAL LAW, MAURICE A. DEANE SCHOOL OF 
                    LAW, HOFSTRA UNIVERSITY

    Mr. Ku. Thank you. Thank you, Mr. Chairman. Thank you to 
the members of the subcommittee for inviting me to participate 
in today's hearing. In the interest of time I will just focus 
on two of the three issues I address in my written testimony.
    I want to concentrate first on the legally binding effect 
of congressional declarations of policy in laws like the Taiwan 
Relations Act and the Taiwan Travel Act. And second, I want to 
address how Congress can use its powers to declare policy that 
can help clarify the U.S. One-China Policy. I will leave the 
third issue to my written testimony.
    So just from a lawyer's point of view, the Taiwan Relations 
Act is a law that has guided U.S. policy toward Taiwan for 
nearly 40 years. And in addition to providing legal mechanisms 
allowing the U.S. and Taiwan to maintain unofficial relations, 
it also sets forth the goals of U.S.-Taiwan policy with 
admirable clarity.
    And I want to emphasize to the subcommittee and the Members 
of Congress here that the declarations of policy in the Taiwan 
Relations Act are not merely non-binding statements without any 
legal force. Unlike concurrent resolutions that are never 
presented to the President for his signature, the Taiwan 
Relations Act was passed by both Houses of Congress and signed 
by the President. As such, it is the supreme law of the land 
under Article VI of the U.S. Constitution. This is true of the 
Taiwan Relations Act and as I have written recently this is 
also true of the recently enacted Taiwan Travel Act.
    Congressional declarations of policy, even ones phrased in 
non-mandatory language such as ``should'' are not mere window 
dressing. Rather, unless those statements of policy are deemed 
to impermissibly interfere with the President's constitutional 
authority over international affairs, such policy declarations 
must be taken seriously as legal obligations by the executive 
branch of the United States Government. This is true even if 
the only enforcement mechanism for such obligations are 
congressional hearings such as this one and other forms of 
congressional oversight. Congress should not allow the 
Department of State to simply dismiss laws like the Taiwan 
Travel Act or the earlier Taiwan Relations Act as merely 
legally non-binding.
    Secondly, I would like to address the overarching issue 
that Chairman Yoho addressed in his opening remarks and others 
have alluded to, the big question in U.S.-Taiwan relations. Now 
according to China, as members of this committee will know, 
according to China's point of view the United States agreed in 
1972 when it signed the Joint Communique to a One-China 
principle that encompasses a recognition of Chinese sovereignty 
over Taiwan. Now this is China's point of view, but the U.S. 
did not specifically commit to recognizing Chinese sovereignty 
over Taiwan in that document. Instead, the U.S. position on 
Taiwan is better understood as one of neutrality.
    The United States takes no legal view on whether Taiwan is 
part of China, rather, the U.S. goal which is stated in the 
Taiwan Relations Act is to ensure that any final resolution on 
the status of Taiwan is made through peaceful means, free of 
coercion of any kind. And as I have argued in prior writings, 
the statements of prior U.S. administrations that have opposed 
Taiwanese independence when combined with the ambiguous 
language of the Joint Communique could undermine the legal 
basis for a U.S. military defense of Taiwan in a future 
conflict.
    Congress can help to avoid such implications and clarify 
the U.S. position by statute. Such a congressional declaration 
can coordinate policy across the U.S. executive branch's 
bureaucracy and it can guide U.S. policy across different 
Presidential administrations of both parties. I think we have 
seen here today that there is both bipartisan interest and 
support for Taiwan in the United States Congress. A 
congressional declaration of policy on the U.S. position on the 
status of Taiwan should guide any revision to internal U.S. 
Government approaches such as the guidelines on Taiwan set 
forth by the State Department on U.S.-Taiwan relations.
    So in closing, as Congressman Connolly mentioned in his 
remarks, I believe the U.S. Congress has a central role to play 
in shaping and overseeing U.S. policy toward Taiwan. I 
earnestly hope that the members of this committee and their 
fellow members of the House and Senate will continue the proud 
tradition of Congress leading on developing U.S.-Taiwan policy 
and reinforcing the U.S.-Taiwan relationship. Thank you.
    [The prepared statement of Mr. Ku follows:]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thank you for your statement.
    Ms. Tiffany Ma, next.

  STATEMENT OF MS. TIFFANY MA, SENIOR DIRECTOR, BOWERGROUPASIA

    Ms. Ma. Chairman Yoho, Ranking Member Sherman, and members 
of the committee, I wanted to thank you for the opportunity to 
be here today to discuss the importance of reinforcing the 
U.S.-Taiwan relationship.
    To begin, the U.S. vision for the Indo-Pacific region 
underscores the importance of Taiwan to the United States. This 
administration has advocated a Free and Open Indo-Pacific 
Strategy which emphasizes freedom from external coercion as 
well as openness in terms of trade, investment, infrastructure, 
and maritime movement. And this really does read like a 
strategy that is tailor-made for advancing U.S.-Taiwan 
relations.
    Moreover, we should consider that Taiwan's positive 
contributions to regional stability serve as a force multiplier 
toward U.S. strategic objectives. For example, Taiwan is a 
member of the Global Coalition to Defeat ISIS. It is actively 
complying with U.N. sanctions on North Korea and it is 
deepening regional cooperation through its New Southbound 
Policy as well as with the United States through the Global 
Cooperation and Training Framework. It is important to note 
here that the U.S.-Taiwan relationship also intersects with 
other key U.S. priorities in terms of trade and security in the 
region.
    On trade, as the chairman mentioned, Taiwan is the United 
States' tenth largest trading partner by goods and the sixth 
largest market for U.S. food and agriculture products. Taiwan 
also sends one of the largest delegations to the SelectUSA 
Investment Summit. And Foxcom, a Taiwanese company, its new 
investment in a facility in Wisconsin could employ up to 13,000 
people. On the security front, I want to emphasize that U.S.-
Taiwan cooperation is critical to Taiwan's defense and 
deterrents against China's increasing military threat.
    Overall, the U.S.-Taiwan relationship is robust and this is 
marked by several of the events that we have just discussed 
including the passage of the Taiwan Travel Act, the recent very 
well received visit of Deputy Assistant Secretary of State Alex 
Wong to Taipei, and of course the opening of a new American 
Institute in Taiwan complex later this year which is going to 
be marked with the anticipation of high-level U.S. 
representation present.
    But despite these very positive measures, there are of 
course increasing challenges to the U.S.-Taiwan relationship. 
Although President Tsai has committed to maintaining the status 
quo since taking office, it is increasingly clear that China is 
effectively rewriting, not just changing, the Cross-Strait 
status quo through coercion and sharp power tactics in an 
attempt to push the people of Taiwan toward unification which 
is Beijing's ultimate goal. And these developments are indeed 
extremely concerning and cause for us to reinforce the U.S.-
Taiwan relationship, and to this end I recommend the following 
measures: First, we need to maintain a consistent and coherent 
approach toward Taiwan and here Congress's oversight role is 
indispensable. Congress can also play a role in helping to 
dispel notions about using Taiwan as a bargaining chip by 
reaffirming U.S. commitments to Taiwan.
    Second, we need to work toward integrating Taiwan into the 
Free and Open Indo-Pacific Strategy and one of the ways that we 
can do this is to harness the natural convergences between 
Taiwan's New Southbound Policy and in terms of areas of 
infrastructure and innovation promotion.
    Third, we need to make serious efforts to address economic 
and trade issues in Taiwan. The immediate priority, in my view, 
should be ensuring that Taiwan receives an exemption from the 
steel and aluminum tariffs. Imposing tariffs on Taiwan sends 
the wrong message about U.S. treatment of such an important 
partner as Taiwan and serves as an impediment and a distraction 
from moving forward on other forms of economic cooperation. 
There is also, in my view, significant potential for building 
on U.S.-Taiwan cooperation in the field of intellectual 
property protection and trade secrets.
    Fourth, it is imperative that we deepen and broaden our 
security relationship with Taiwan. One way to start, would be 
regularized arms sales and treating Taiwan like a normal 
security partner. The primary consideration ought to be what we 
deem to be in Taiwan's self-defense interest rather than what 
is the least objectionable to China because they are certain to 
object, irrespective.
    We can also expand defense cooperation with Taiwan 
including on things that have already been discussed such as 
potential Taiwan participation in RIMPAC, port calls, and 
building on areas of cooperation, in particular cybersecurity. 
And last, in support of the previous recommendation we ought to 
commence meaningful and regular high-level exchanges that can 
move the needle on these critical trade and security issues.
    In conclusion, there is significant potential in 
strengthening U.S.-Taiwan relations and in doing so we will 
only reinforce the long-term U.S. security goals in the Indo-
Pacific. Thank you, Mr. Chairman and the committee, and I look 
forward to your questions.
    [The prepared statement of Ms. Ma follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. I appreciate everybody's testimony. I look 
forward to getting some good questions. As I said, we are under 
time constraints with the competing hearing on Syria, but we 
have been fortunate to be joined by Mr. Steve Chabot of Ohio 
who used to chair this committee and is responsible for that 
great legislation that we talked about today.
    And I want to turn it over to you. And, Steve, if you want 
to go an opening statement and go right into questions I will 
defer to you because I know you have another hearing to go to.
    Mr. Chabot. Thank you, Mr. Chairman, and I will be brief 
for a couple of reasons. One thing, we have a briefing on Syria 
that I think we are all anxious to get to. I also have a 
committee meeting going on as we speak in Judiciary and I 
wanted to come to this one because this one is particularly 
close to my heart, Taiwan, one of our strongest allies.
    As one of the founding Members of the Congressional Taiwan 
Caucus, I think it is the goal of many of us on both sides of 
the aisle to strengthen an already strong relationship between 
Taiwan and the United States and, I think, the Taiwan Travel 
Act, which many of us fought for a long time. And I want to 
thank my colleague on the other side of the aisle, Brad 
Sherman, and also our full chairman, Ed Royce, and many other 
members again on both sides for their hard work on this, and 
the people of Taiwan in working with us for such a long time to 
attain this. It will make a difference.
    I think the ability of the top officials here in the United 
States and the top officials in Taiwan--the President, the Vice 
President, the Defense Minister, the Foreign Minister--to 
actually be able to meet face-to-face either in Taiwan or here 
in the United States, I think it is hard to overestimate the 
value of that. That being said, it should only be considered a 
step, a very important step, but a step toward improving even 
more the relationship, the alliance between Taiwan and the 
United States.
    It is a country, and I don't say that word by accident. It 
is a country that is a strong ally of the United States. It is 
in our best interest to make sure that Taiwan remains free. The 
people of Taiwan, they ought to be and are, I think, in many 
ways, a role model for other nations who face hostile entities 
very close to home. And the future of the people of Taiwan, the 
future of the nation itself should be and I think will be, I 
know will be determined by the people of Taiwan.
    Not by bullies in the PRC, not by the United States. It is 
not our intention to tell Taiwan what it ought to do. But we 
know because Taiwan has been for decades now an inspiration in 
that it is a democratic nation, one that freely elects its own 
leaders, sometimes somewhat tumultuous. There is no question 
about that. You know, relatively new democracies also 
experience that. Even ones that have been around for a couple 
centuries have our own challenges now and then. All you have to 
do is watch the news to see that that is true.
    But in all seriousness, having been here 22 years now I am 
so glad that this is one of the issues that I have devoted a 
fair amount of time on because it has been worth it to see 
Taiwan continue to grow, continue to be a democracy that other 
nations can look to see how it is done. That doesn't mean that 
there isn't a lot of work that still needs to move forward and 
I think a lot of us on both sides of the aisle, I want to 
emphasize that both Republicans and Democrats working together 
will be there with Taiwan, both now and into the future.
    I think, rather than go into questions, Mr. Chairman, I 
think I will yield back at this point to make sure that we can 
get to those other important engagements that many of us have. 
So I will yield back.
    Mr. Yoho. I appreciate that and I appreciate your work and 
you showing up on your busy schedule. But I think the Taiwan 
Travel Act is a historic piece of legislation that sets a tone 
for a new era in our relationship with Taiwan and around the 
world.
    Mr. Stokes, you were talking about a fundamental policy 
review that should be addressed. And, you know, you have heard 
it twice here, a country, Taiwan is a country, and when I was 
over there we were talking about that. You know, what do you 
call an entity that has a flag and their own military if not a 
country and a democracy. And I know that is taboo to say that 
or take a phone call from President Tsai congratulating our 
President. If we can't say those things in the open, I think we 
are in a very dangerous situation in the world.
    And I think it is time to revisit this. If we look at 
Taiwan, it was recognized as such, a country from 1949 to '71, 
and '71 to '72 there was this cloud of vagueness, what are we? 
We are going to recognize you as such, but we are not going to 
call you that. We are going to recognize you as part of this 
other entity over here, China, and we are where we are at 
today.
    And as I shared with you earlier, in Robert Gates' book, 
Duty, back in the mid-2000s, probably 2012, 2013, we had the 
arms sales going back and forth with China, or with Taiwan for 
all those years, 1979, I believe it was, and nobody complained 
overtly. But as China was getting stronger they raised a lot of 
angst and didn't like our arms sales to Taiwan. And our 
negotiator said, well, what is your problem? We have been doing 
this for a long time. And the Chinese admiral says yes, I know, 
but back then we were weak. We are strong now. And I think that 
is a very clear message of the intention and especially if we 
move forward.
    And the Chinese Communist Party and Mr. Xi have an 
insatiable thirst for power and domination and, as we know, 
history has shown from time and time again, this is to be a 
very dangerous situation when people have that hunger for 
domination and for power. And what I see is China is threatened 
by the success of Taiwan's democracy. They are insecure and 
they are frightened that their Communist ideologies cannot 
compete with freedom and that is what we have that they so much 
don't like because it threatens their form of government.
    What I have come to see is people and businesses do 
business with those that they know, like, and trust. And if 
China doesn't honor its word and agreements as in the transfer 
of Hong Kong in 1996 from Great Britain to China, where China 
agreed not to interfere in the governing of Hong Kong for 50 
years, yet it has, or China ignoring the court arbitration in 
The Hague stating that they, The Hague, they stated that China 
has no claim on the East Sea, and then, finally, Xi Jinping 
blatantly lied to President Obama stating that they would never 
weaponize the reclaimed islands of Spratly and Paracel Islands 
in the East Sea, yet they have; so then my question that comes 
up and other people I have talked to, then why would anyone do 
business in the business world with a company, or in this 
situation with a country, that lies, or they don't like a 
country? They either lie or their government doesn't honor 
their word or the word of international law.
    And I think that is where we are at today and so the stage 
is set. As we have talked about earlier in the opening 
statement, we have had a stable system since World War II that 
have allowed democracies to flow, that have allowed people to 
have freedom of expression. And the expansion of that I think a 
great example of that is Taiwan and what they have been able to 
accomplish, a tiny island nation that has been able to 
accomplish that and the very many contributions that they have 
come up with.
    And the beauty of being the chairman of a committee, 
sometimes it is lonely but I get to ask all my questions. 
Question number 1, and you guys weigh into this as you want to, 
is Taiwan's democratic success story all the more important as 
Xi and the CCP seek to export China's governance model to the 
developing world?
    What is your thoughts on that? We will start with you, Mr. 
Stokes.
    Mr. Stokes. Thank you very much for that question, sir. I 
would posit it in this way. If one views our One-China Policy 
in a zero sum framework in the sense of we can only have normal 
relations with one side of the Taiwan Strait or the other, 
since 1979 we have extended legitimacy to the Chinese Communist 
Party and withheld legitimacy from a government that has 
transitioned from an authoritarian style of rule toward a 
vibrant democracy.
    So today's challenge is that we, in a sense we extend 
legitimacy to an autocratic government and withhold legitimacy 
from a democracy. And I would ask what kind of signal does that 
send to the rest of the world? It should not be a surprise that 
Freedom House has come out with statistics that talks about the 
decline of democracy around the world.
    So this is, some would call extension of legitimacy to 
Taiwan, some would call that so, for example, symbols of 
sovereignty. There are guidelines. After 1979 there have been 
guidelines that have been directed from the White House level 
that have outlined how we define what is official and what is 
unofficial. And even use of the term ``government'' with regard 
to Taiwan as far as I know or at least to be forbidden, you 
couldn't use the word ``government.''
    Mr. Yoho. Yes.
    Mr. Stokes. You can't use the word ``Republic of China.'' 
You cannot use the word ``ROC.'' There are issues like this 
that sort of purposely withhold legitimacy. And I would argue 
that once you distinguish between legitimacy and sovereignty, I 
think as Julian mentioned, I think the issue of sovereignty we 
have traditionally not, we have taken an agnostic position at 
best on the ultimate status of Taiwan. But sovereignty is not 
necessarily legitimacy and in my view that should be 
distinguished.
    Mr. Yoho. No, I think that is true. And that is why I asked 
you about, you know, maybe it is time to revisit these 
fundamental policies and draw some new definitions for the 21st 
century. That we have been intimidated maybe or, you know, our 
State Department taking down the Taiwan flag on the logos, I 
don't still understand why that was done. I have my theories on 
that but I think it is something that needs to be put back 
there.
    Let's see. Going on, you know, we know that Taiwan was 
removed from the WHA, the World Health Assembly, and they can't 
participate in WHO or INTERPOL or some of the other 
international events. How and why is China able to subvert a 
technical organization like the WHO for its own political 
goals? What is your thoughts on that Mr. Ku?
    Mr. Ku. Thank you, Mr. Chairman, for giving me the 
opportunity to talk about that, yes, which I addressed in my 
written testimony. I think I was struck by what is amazing is 
that the decisions to invite or not invite Taiwan are not a 
vote of all the membership of those organizations. So it is not 
as if they survey all the countries and they vote on whether to 
accept Taiwan or not. What is interesting about extending an 
invitation to an observer to World Health Assembly is actually 
a decision, as I understand it, of the director general of the 
organization.
    So it is kind of a bureaucratic decision and so thereby 
there is no open vote on where people have to take sides on 
whether to extend the observer status. And it is remarkable to 
me that the U.S. cannot exercise more leverage in such 
organizations given that we contribute three to four times or 
five times more financially to each of these organizations. And 
it is not a political fight where we have to go out and gather 
votes from other countries, it is just about trying to 
influence the bureaucracy at the World Health Organization or 
INTERPOL or such.
    And I do, without criticizing too much the State 
Department, I am struck by the ineffectual efforts of our 
diplomats compared to China's diplomats.
    Mr. Yoho. I agree with that. And as you pointed out, you 
know, we contribute three times more than China. We put in $59 
million versus 19, but yet it seems like the WHO bowed to them. 
And they should be apolitical and they should look at the 
contributions that a country makes. You know, you look back at 
what Taiwan did with the SARS epidemic. They are the ones that 
discovered the virus that was causing that and did the 
preliminary work on that to save countless numbers of lives. 
And so how do we put pressure on the WHO? Do we just say we are 
not going to participate anymore or we are not going to fund 
you, and get them to come to the table? I don't understand how 
they were able to be swayed by China other than by a heavy 
hand, coercion, or intimidation.
    Mr. Ku. Just to follow up on that. Yes, and I agree. I 
think that so the operative word here is coercion. So the 
strategy for China is by denying even observer status that what 
they are trying to do is make it harder for people on Taiwan to 
gain access to the technical, you know, benefits of joining 
these organizations. So it is not about One China or not. It is 
just about making it harder on the lives of people in Taiwan. 
And I think that is something that shows China's ill intent in 
the organizations. I think, frankly, to be honest this is my 
guess as to what is going on, China cares a lot--China's 
diplomats' one goal in WHO is to keep out Taiwan. U.S. 
diplomats have 50 goals at WHO, Taiwan is 50th on the list. And 
so I think what really needs to happen is we need to raise that 
priority somehow for the U.S. executive branch and that is 
where I think Congress can make a difference in trying to raise 
Taiwan so that the U.S. Government puts a little bit more 
effort in protecting Taiwan in these organizations.
    Mr. Yoho. Thank you.
    Ms. Ma, do you have anything you want to weigh in on any of 
those?
    Ms. Ma. Sure. I will weigh in on the first question about 
Taiwan's democracy. I think preserving and supporting Taiwan's 
democracy is even more important now in the context of the 
backslide in democracy and civil rights and human rights in the 
region. We contrast Taiwan's very vibrant democracy with 
China's authoritarian system, Taiwan is a partner that 
reinforces the regional order. President Tsai has reaffirmed 
that Taiwan stands willing and ready to defend the common goal 
of freedom and openness and go all out in the protection of the 
fundamental international order and this stands in clear 
contrast to Beijing's tendency toward revisionism, as this 
administration is increasingly recognizing.
    You know, it is difficult to really envision how China's 
future for Taiwan and in the Taiwan Strait would serve U.S. 
interests and, therefore, I think it is even more critical that 
we think about how we want to integrate Taiwan into the Free 
and Open Indo-Pacific Strategy. Thank you.
    Mr. Yoho. Thank you. In the third Joint Communique in 1982, 
President Reagan said that the United States has no intention 
of infringing on China's sovereignty and territorial integrity 
or interfering in China's internal affairs or pursuing a policy 
of two China's or one China, one Taiwan. And so that was back 
in 1982, yet we have moved to where we are today and we see an 
aggressive China. And if you look at, I think it was in your 
statement, Mr. Ku, where you were talking about the TRA 
declares that it is U.S. policy to provide Taiwan with arms of 
a defensive nature or character and maintain the capacity of 
the United States to resist any resort to force or coercion.
    What is your thoughts on that from 1982 with President 
Reagan and the TRA that we have today?
    Mr. Ku. Yes, I mean the TRA responded, I think, and tries 
to deal with--and I am sorry, the Six Assurances responded to 
the 1982 Joint Communique, but I think it reflects some of the 
instability in our U.S. policy toward Taiwan. I think in 
pursuing better relations with China, I think Taiwan always 
sort of is an obstacle to that so when we want better relations 
with China, we give up more on Taiwan.
    I think the TRA is a reminder that we have a governmental 
commitment to allow the people of Taiwan to have a free choice 
as to what they want to do with their future and what they have 
chosen so far is to move toward a democratic future. And that 
is something that the U.S., I think, strongly supports across 
all parties. I think our policy can continue along the same 
lines.
    If the people of Taiwan have the freedom to choose what 
they want, then the people in China have to make a choice as to 
how they are going to convince the people in Taiwan that if 
they want to reunify that they offer a deal that the people in 
Taiwan can accept. As you mentioned, Mr. Chairman, China is not 
offering any deal and it is hard to imagine that deal happening 
any time in the future. In 1982 we could have imagined that 
deal. Times have changed and so we need to make sure the 
Taiwanese people can still make a choice.
    Mr. Yoho. I think that is very well put. And, you know, 
like I said, in that book we were weak then; we are strong now.
    So Mr. Stokes, moving forward, if we don't get a good 
definition and clarification of the status of China, Taiwan, 
the rest of the world, in 3 to 5 years what do you foresee, if 
you could predict in the future of we don't get some 
clarification of where we are going, the status of Taiwan in 
the future?
    Mr. Stokes. To answer your question, sir, I would go back 
to the original statement of objective reality that Taiwan 
under its current Republic of China Constitution exists as an 
independent, sovereign state. That, in my view, is the starting 
point for everything.
    Mr. Yoho. Well, let me interrupt you right there.
    Mr. Stokes. Yes, sir.
    Mr. Yoho. Nobody is recognizing that today other than maybe 
Taiwan and, you know, the United States. I think we have 
capitulated a lot especially over the last 8 to 10 years of not 
really holding people's feet to the fire and allowing Taiwan to 
be marginalized, you know, with China going to Panama and 
getting rid of their diplomatic status and as they have done 
with some of those countries off of Africa.
    And then our own State Department blatantly removing the 
Taiwan flag symbol, again I have my theories of why that 
happened, but if we don't do it now and start recognizing that 
is it going to be easier or harder 3 to 5 years from now?
    Mr. Stokes. Sir, it will be harder if we go about, if we 
adopt a satisficing approach regarding Taiwan. You are right on 
the recognition issue, but Beijing has its One China Principle 
and that is with a capital P. And gradually there is a 
concerted effort to try to shape perceptions here in the United 
States and around the world regarding perceptions of and to 
manipulate their definition of a One China principle and that 
is and they are implementing their One Country, Two Systems 
formula for unification internationally in a concerted way. 
That is, there is one China, Taiwan is part of China and the 
PRC; it is all representative of China in the international 
community. This is not correct. Our One-China Policy can be 
anything we say it is.
    Mr. Yoho. Right. No, I agree with that.
    Mr. Ku, or anybody that wants to weigh in this, you know, 
when we have surveyed people of Taiwan and we have read those 
surveys, what percent would you say view themselves as 
Taiwanese versus Chinese, and what percent believe in 
unification or going back to China versus staying an 
independent nation as their Constitution says?
    Mr. Ku. And I will start first. I don't have the numbers at 
hand. I know that strong majorities are, now the majority of 
people do see themselves as Taiwanese rather than Chinese 
although it is not overwhelming. Where it is overwhelming, as I 
understand it, is among people under the age of 30, which is 
obviously the future.
    And I had the experience of teaching law students in Taiwan 
just last year among the elite law schools and the future of 
elite lawyers in Taiwan are all pretty strongly Taiwanese and 
not Chinese in their sense of self-identity, at least my 
impression was. And more tourists in China has only made that 
identity stronger rather than weaker. So I think if the people 
of Taiwan had a free choice, I think we could probably guess 
where they are heading.
    Mr. Yoho. Ms. Ma?
    Ms. Ma. Thank you, Mr. Chairman. To add to Mr. Ku's point, 
the polls on sentiments on political unification identification 
is overwhelmingly demonstrating that most Taiwanese, especially 
the younger generation, identify themselves as only Taiwanese 
or both Taiwanese and Chinese, but then there is a very small 
minority only that identifies as Chinese.
    Another interesting poll I would like to raise is done by 
the Taiwan Foundation for Democracy which asks the participants 
whether they would fight in a war against China. And when asked 
if the conditions of war was due to Chinese pressures and 
coercion and attack against Taiwan, this response 
overwhelmingly jumps up to affirmative that yes, they will 
stand and fight for Taiwan. So given this, as Mark says, 
objective reality of where the situation is really that the 
Taiwan population, the sentiment is that they would not like to 
unify with China.
    This calls into question the sustainability of the U.S. 
policy position where under the Six Assurances especially the 
U.S. emphasizes a process that the U.S. would not play a 
mediation role. It would not push Taiwan to negotiate with 
China. And as Julian mentioned, the U.S. takes a position of 
neutrality and that is increasingly difficult to sustain when 
the objective reality is that if the people of Taiwan were free 
to choose they would choose not to unify with the mainland 
China.
    Mr. Yoho. Thank you.
    Next, we will go to Mr. Connolly from Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    Ms. Ma, picking up on that last point, but isn't it true 
that in polling overwhelming majority of people in Taiwan want 
to continue the status quo indefinitely? They neither support 
reunification nor outright independence. Is that not correct?
    Ms. Ma. Yes, Congressman Connolly. That is correct. There 
is an overwhelming preference for the status quo.
    Mr. Connolly. And why do you think that is?
    Ms. Ma. I think it is because in part of Taiwan's really 
remarkable democratic transition. I think the people of Taiwan 
enjoy the lifestyle that is afforded by the political freedoms 
that they enjoy. The vibrant economy, democracy has given rise 
to an economy, a system of government that is, it is a strong 
rule of law. So I think these personal freedoms are very 
important to the people on Taiwan.
    Mr. Connolly. Of course, presumably another part of that is 
concern that not unduly provoking the neighbor, right, because 
if we want to preserve our way of life, our democracy, our 
quality of life, an island of 25, 30 million people with 1.5 
billion people staring them across the Strait, you don't 
needlessly provoke them. And my sense is the common sense of 
the Taiwan people tells them that irrespective of what 
politicians in Washington or even Taipei may want to do.
    You talked about reinforcing U.S.-Taiwan relationship and 
you talked about maintaining a constant and coherent position 
on Taiwan. I am looking on the Trump administration, the call 
with President Tsai, reconsideration of the One-China Policy 
before reaffirming that policy. Now we have a new third 
National Security Advisor talking about playing the Taiwan card 
as if Taiwan were some kind of game.
    Do you think we have maintained in this new administration, 
well, Trump administration, a constant and coherent position on 
Taiwan?
    Ms. Ma. My view on that is that the Trump administration is 
still formulating its broader policy toward the Asia-Pacific. I 
do think, however, it is important to maintain a consistent and 
coherent position on Taiwan and I think Congress plays an 
important role as a bulwark against the fluctuating priorities 
that might happen in the executive branch when it comes to 
pursuing particular policy agenda, vis-a-vis China.
    With respect to maintaining a consistent position, I think 
part of maintaining a consistent position is very much how 
Congress can help respond to the Chinese retaliation, and in 
that vein things like the Taiwan Travel Act, the additional 
language in the NDAA play an extremely important role in 
response to that.
    Mr. Connolly. Thank you.
    Mr. Ku, did you want to comment on that?
    You need to turn your button on. That is all. Thank you.
    Mr. Ku. So I guess just on the broader question of the 
status quo, China has this law called the Anti-Secession Law 
which allegedly requires it to use force if there is any action 
taken toward separatism in Taiwan and that law was reaffirmed 
by President Xi in recent statements. I think the message from 
China is pretty clear to the people of Taiwan that an open move 
toward independence would be met with military force, at least 
a threat of that. And I think reasonable people would say, 
well, why do that? Why start a fight? The status quo is pretty 
good for us.
    I think the interesting question for people though, here, 
and for Members of Congress and leadership in Washington is to 
think about how long can this situation continue in this sort 
of status quo standoff. And I think it is hard to predict the 
future, but it is something that it does worry me a lot that we 
can't maintain that sort of tension much longer as we see the 
trends in Taiwan, the young people moving away at least in 
self-identification from China.
    And yet on the flip side, the Chinese Government has become 
even more bellicose in its rhetoric not less so, and that is 
not a good sort of situation, I think, in terms of trying to 
maintain the status quo.
    Mr. Connolly. And if I could follow up on that there have 
been recent articles about the brain drain from Taiwan and lots 
of young people seeking their fortunes on the mainland. There 
was a, you know, they profiled one young woman who was a 
designer and she wanted to go to the glitter and lights of 
Shanghai. I am old enough to remember nobody would talk about 
glitter and lights in Shanghai, but now--so how much of a 
threat is that long term that maybe the mainland is playing the 
game of we will just squeeze the lifeblood out of them instead 
of a military action and the talent and the, you know, brain 
creativity will be drained out of the island and we will win 
that way?
    Mr. Ku. So just on that one point I have a lot of 
confidence that that won't happen because I do believe Taiwan 
will remain a really different place, offer a lot more in the 
long run to people like that and then China will display the 
obvious economic benefits. People talk about the brain drain 
from Taiwan to the United States. People talk with me and they 
think Taiwan has been able to sustain itself and I think a lot 
of those people come back in the long run.
    Mr. Connolly. I don't know if the chairman wants to allow 
Mr. Stokes to also comment? I thank the chair.
    Mr. Stokes. Certainly, if I can offer some brief responses, 
first, on the status quo. That is a term used both on Taiwan 
and here in the U.S. without a lot of definition put to it. I 
would argue that on Taiwan I think there is a rough consensus 
that the status quo, again going back to the mantra I mentioned 
before is that some people can use different formulations, some 
people just prefer to use Taiwan exists in a sovereign state, 
some would say that Taiwan known formally by ROC, and then the 
one that I mentioned.
    But my perception when that term ``status quo'' is used, 
Taiwan already exists as a country; when the term ``Taiwan 
independence,'' in my view, generally is going to mean taking 
steps to revise the Constitution, taking steps to revoke the 
law of governing relations between the Taiwan area and the main 
area, things like this. But, and there certainly is a 
substantial part of the population who believes that Taiwan 
should be a normal country.
    Here in the U.S. you will see the mantra, there should be 
no unilateral change in the status quo as we define it, but we 
don't define it. In my view, the status quo in the Taiwan 
Strait is the existence of two legitimate governments. 
Actually, I take, I represent Rohrabacher's comment that the 
Chinese Communist Party does not represent a legitimate 
government, but.
    Mr. Connolly. I thought he was actually talking about 
Russia.
    Mr. Stokes. Maybe, but I will leave it at that, sir.
    Mr. Connolly. Just a final point, and thank you, Mr. 
Sherman. But obviously it is a balance and I take all three of 
your points of view. But I mean unnecessarily provoking the 
mainland, Beijing, is not in anyone's interest. On the other 
hand, simply abrogating our own responsibilities and our own 
control of the bilateral relationship with Taiwan is not in our 
interest or Taiwan's, and I would argue, long term, not in 
China's either.
    So it is a balance. But we can't simply cede the control 
and the rules of the game in the relationship to Beijing. And 
as I said in my opening remarks, I certainly hope Beijing does 
not misunderstand that because that miscalculation could be 
very costly to them as well as us.
    I thank the chair.
    Mr. Yoho. Thank you for your comments.
    We will next go to the ranking member, Mr. Brad Sherman, 
California.
    Mr. Sherman. Thank you. I would like to say having visited 
Taiwan, not as often as the gentleman from Virginia, that there 
is so much vibrancy there, so much lifeblood that even if 100 
talented people a year go to the mainland, even if thousands 
come to the United States every year, there is not a shortage 
of vibrancy, intelligence, capacity, and entrepreneurship. And 
that is why I welcome some of the most entrepreneurial 
Taiwanese to my state knowing that there is plenty left back in 
Taiwan.
    The status quo is acceptable. It has worked. The status quo 
plus this or that change works better. And there will come a 
time when Beijing either tires of trying to cross the Straits 
or finds itself in tough straits and focused on something else 
and that could be a time when Taiwan crosses the line to 
independence.
    Taiwan wants the F-35 Joint Strike Fighter. This clearly 
seems like a defensive weapon in the sense that Mr. 
Rohrabacher's comments aside none of us imagine the Government 
of the Republic of China taking aggressive action and landing 
its forces on the mainland. So it would be a plane that would 
be used to defend Taiwan from invasion fully consistent with 
our legal stance. Should we sell the F-35 to Taiwan? I will go 
through the--Mr. Stokes?
    Mr. Stokes. Sir, I would like to start off by a comment 
that whether or not a system is defensive or offensive depends 
upon what side of the gun you are standing on.
    Mr. Sherman. No. There are----
    Mr. Stokes. Yes, sir.
    Mr. Sherman. All of us can imagine the mainland invading 
Taiwan. That is a nightmare. But with the exception of one 
gentleman who is no longer on this dais, none of us imagine 
Taiwan landing its troops on the mainland. The days of Chiang 
Kai-shek's return died with Chiang Kai-shek and long before. Go 
ahead.
    Mr. Stokes. Yes, sir, exactly. Taiwan's strategy is 
inherently defensive. As you mentioned, they gave up this 
notion of recovering the mainland many years ago.
    Mr. Sherman. So should we sell the F-35?
    Mr. Stokes. If Taiwan requests the F-35 based upon a 
consensus within Taipei, I think we should.
    Mr. Sherman. Mr. Ku?
    Mr. Ku. Yes. I mean I don't have expertise on weapon 
technology, but I do think that the overall policy if it is 
defensive and it is consistent with our own interests in terms 
of how we hand out technology.
    Mr. Sherman. And Ms. Ma?
    Ms. Ma. I think Taiwan is in the best place of determining 
its defense interest. I think we should consider focusing on 
what is going to be the cost efficient, the most flexible, the 
most agile, the most resilient for the Taiwanese defense budget 
and----
    Mr. Sherman. Okay. Taiwan deals with major American 
allies--South Korea, Japan, Australia--that are in its region. 
To what extent are those countries yielding to pressure from 
Beijing and to what extent are those countries maintaining a 
good relationship with Taiwan?
    Ms. Ma?
    Ms. Ma. Thank you. I would like to point out in particular 
the relationship between Taiwan and Japan which has undergone 
some symbolic upgrade in terms of elevating the names of the 
representative office, and I think that is a relationship with 
significant potential as Japan very clearly faces similar 
concerns with Taiwan vis-a-vis China. Thank you.
    Mr. Sherman. And does Japan do business with Taiwan in a 
robust way?
    Ms. Ma. I think they do and I think they will. I think 
there is significant potential for that. Japan is of course a 
critical U.S. ally in the region and a host to a very 
significant U.S. military presence. So I think Japan's role in 
a Taiwan contingency alone should drive the Japan-Taiwan 
relationship forward.
    Mr. Sherman. We have got a $9 billion trade deficit with 
Taiwan. Now that is just a small percentage of the total trade. 
It is not a lopsided relationship like we have with Beijing and 
of course it is smaller. Taiwan is smaller than China. But what 
can we do to increase American exports to Taiwan? Does anyone 
have a guess, an answer? And you can't just say sell the F-35s.
    Ms. Ma. Taiwan is taking measures to address the trade 
deficit, for example, it is starting to purchase U.S. LNG. But 
looking at the largest categories of U.S.-Taiwan trade, which 
is in machinery and also agriculture, I would identify those 
two as major areas for deepening cooperation. And then I also 
want to point to Taiwan's sort of innovation moves. You know, 
it is trying to become Asia's Silicon Valley and there is a lot 
of prospects in cooperation on AI and in the ICT sectors as 
well that could help address the trade balance.
    Mr. Sherman. I am told there are soybeans ready to export 
across the Pacific that may not be purchased in another country 
on that side of the Pacific that may be available. It would be 
asking too much to ask the people of Taiwan to eat as much as 
the people of China, total, but every bit helps.
    Finally, there is the issue of whether this Congress should 
invite the President of Taiwan to come and address us. Normally 
you only invite in conjunction with the State Department. We 
departed from that with the Netanyahu invitation. That didn't 
work out in the sense that it didn't achieve its legislative 
purpose, vis-a-vis the congressional vote on the Iran deal, but 
I don't think the President of Taiwan would come with a 
particular bill that they were trying to deal with. Should 
Congress just say what the heck and invite the President of 
Taiwan to address us and could you imagine the administration 
denying a visa to someone who is coming here at the request of 
the United States Congress or the House of Representatives 
particularly?
    Mr. Stokes?
    Mr. Stokes. So I would in terms of responding to the 
question whether or not Congress should invite President Tsai, 
I would argue that after consultation if the two sides think 
that would be a good thing to do.
    Mr. Sherman. Or the two sides, because we get along fine 
with Taiwan. It is the executive branch that over the last 22 
years has not been as supportive.
    Mr. Stokes. Well, I mean just there is not a unilateral 
announcement that we are going to invite President Tsai over. I 
would say I think that warrants positive consideration to be 
able to invite, for Congress to invite the President of the 
Republic of China, President Tsai, to Congress to be able to 
address Congress after consultation between Congress and her.
    Mr. Sherman. Between Congress and Taipei and maybe we will 
leave the White House out of it.
    Mr. Ku?
    Mr. Ku. Yes, I mean this is a difficult decision because I 
think it would spark a tremendous firestorm in China. So I 
think we would have--that is why it is important to consult----
    Mr. Sherman. Yes. I think one could take a much smaller 
action and invite the Foreign Minister to brief this committee 
which would be a step in that direction and would have the 
additional advantage that we would not only gain from these 
three witnesses but from the Foreign Minister.
    Ms. Ma?
    Ms. Ma. I agree with the caution that Mr. Stokes and Mr. Ku 
offered. I will say that if through consultation it was 
determined that this was the best course of action, I think it 
would be a tremendous step forward in the U.S.-Taiwan 
relationship. I think President Tsai is probably best 
positioned to articulate Taiwan's needs and predicament and, 
you know, she is somebody who knows the United States very 
well. She spent time here at Cornell. She visited Washington, 
DC, frequently as the opposition leader, and I think she will 
come to Washington, DC, and be welcomed by many friends.
    Mr. Sherman. Maybe we start with the Taiwanese 
``Ambassador'' to Washington and then move up to the Foreign 
Minister and put the head of state visit off for a little 
while. I yield back.
    Mr. Yoho. No, that is fine and I appreciate you coming 
back. And I have to give a plug. President Tsai also taught at 
the University of Florida Law School for 6 weeks. So go Gators.
    You guys bring up some very interesting and challenging 
topics. What do we do, and I think most important is, what does 
Taiwan want to do? I think you have heard it said here that we 
would like to be facilitators. We have an agreement.
    Mr. Ku, as you have pointed out the different things that 
we have and that we have in like Section 4 declares that the 
U.S. policy will consider any effort to determine the future of 
Taiwan by other than peaceful means including boycotts or 
embargos or force of threat to the peace and security of the 
Western Pacific and/or grave concern to the United States. And 
that sentiment is reiterated over and over again in that 
agreement.
    Mr. Connolly I want to challenge a little bit even though 
he is not here. He was talking about maintaining the status quo 
and the majority of the Taiwanese people prefer the status quo. 
However, the status quo has changed. We don't live in a static 
world. It is dynamic. There is flux. It is always changing and 
it is changing more than it has probably in the last 25 years. 
I was at a meeting with a bunch of the generals and they were 
saying we are going through a tectonic shift in world powers we 
haven't seen since World War II.
    And so how does this change the calculus? Since the status 
quo is changing, how does this change the calculus of 
maintaining the status quo? Do you want to weigh in on that?
    Mr. Ku go first, you had your hand up first.
    Mr. Ku. Sorry, thank you. I think this is a very important 
question. I think one way to think about this is a thought 
experiment. If this were any other country in the world that 
was not located 100 miles from China and they had a free and 
fair vote on their future, we would in the United States laud 
their decisionmaking in many cases and be likely to support it.
    I think the difficulty here is all geopolitical rather than 
our values. Our values, I think, lead us naturally to support 
the type of free and fair democracy that Taiwan has and the 
freedom of the people there to choose. The question for the 
United States is strategic. Does that fit with the strategic 
interests of the United States, and that is a difficult 
decision.
    Mr. Yoho. Mr. Stokes?
    Mr. Stokes. I would come at it from a slightly different 
angle, sir. And that is that again going back if the status quo 
in the Taiwan Strait is the existence of two legitimate 
governments, and one could argue that another way to approach 
it is that the United States policy should move toward a more 
accurate representation of that status quo.
    Mr. Yoho. Ms. Ma, do you want to weigh in on that?
    Ms. Ma. Sure. I think echoing what Mark said, you know, I 
think it goes back to the question about how sustainable is our 
emphasis on process? Can we remain agnostic as to what is going 
on, but rather advocate that future determination status quo is 
left to the people involved on the ground? So I think that is 
the question that U.S. policymakers have to determine going 
forward. Thank you.
    Mr. Yoho. Okay. And I wrote here, for 22 years, 1949 to 
1979, Taiwan was viewed as a sovereign nation pretty much 
around the world. From '72 to 2018, that is 36 years, we have 
had the status quo. Taiwan didn't change other than being a 
successful democracy moving from an authoritarian to an 
economic powerhouse. The United States didn't change, you know, 
we worked on trade, economics.
    So who changed? What we have seen is a rising China that 
feels threatened, and I go back to the statement I made about 
the Chinese Communist Party and President Xi Jinping or 
whatever he is now have an insatiable thirst for power and 
domination. History again has shown us time and time again when 
you have this combination it is dangerous for the rest of the 
world.
    Again, China, I feel, is threatened by Taiwan's democracy. 
You don't hear of a brain drain coming out of China. You hear 
it coming from other countries into China, because where people 
are free and they have liberties they develop their innate 
abilities for freedom and liberties and they develop those 
things that other countries want.
    And the United States, I am thankful to be born here in a 
country that allows us to express our opinions, our freedoms, 
or anything we want to, but it also gives us the creativity 
quotient that is missing in parts of the world where there is 
suppression like a North Korea or a China. And if you look at 
some of the great developments in the last 500 years, how many 
have come out of a country that has been run by an 
authoritarian state? Not many, because they don't know how to 
dream. They don't know how to think about that.
    And so my caution would be that we move slowly with the 
Taiwanese people to find out a solution that provides them with 
the security that they deserve that they have earned and that 
they continue a vibrant democracy in an economic powerhouse 
that has contributed so much to the world, whether it is 
medicine, biotech, electronics, or other.
    And I think China should take this as maybe a wake-up call. 
Not as a threat, we don't want to threaten anybody, but as a 
wake-up call of how we can solve this problem without the 
detriment of Taiwan or relationships in the Asia-Pacific 
theater and how can we get along and build on the success of 
that country that they benefit from also and that the rest of 
the world benefits from too. Because nobody is trying to take 
over China or Taiwan from the rest of the world and I would 
think that we could work this out to where it is a win-win 
situation where people save face and that we develop a new 
status quo that allows an independent nation to continue to do 
what they do and work with the people of Taiwan to find out 
what their new status quo wants to be that we can facilitate 
with, with other regional partners.
    And I will give you guys--Mr. Sherman, do you have any last 
comments?
    Mr. Sherman. I went long enough last time. Thank you very 
much.
    Mr. Yoho. Do you guys have any last comments? We will just 
go down the line.
    Mr. Stokes. Oh. Sir, I would offer that in terms of your 
statement before, Mr. Chairman, the most fundamental change 
that we have seen at least since 1972 or perhaps it is 1979, is 
not necessarily with the Chinese Communist Party. In a 
fundamental sense it remains somewhat similar to what it was 
before with some changes on the edges.
    The most fundamental change that we have seen has been the 
transformation of Taiwan or the Republic of China into a 
democratic country. Well, it has always been a country, but 
into a democracy. The most fundamental change has been the 
establishment and consolidation of popular sovereignty. This 
change is fundamental. Our current policies that were 
developed, whether it was 1972, 1979, '82, were in a different 
era and our policies you have to catch up with this fundamental 
change on Taiwan.
    Mr. Yoho. Mr. Ku?
    Mr. Ku. Just building on that I think it would be, because 
of Taiwan's democratization it would be a strategic 
catastrophe. Not just a values problem, but a catastrophe for 
United States foreign policy if an aggressive, authoritarian 
Communist regime conquered a liberal democratic government. 
That would be a strategic catastrophe putting apart the affront 
to U.S. values.
    So that actually does change the calculus and probably does 
cause us and probably should cause us to rethink that. And I 
would reiterate that Congress can play a huge role in shaping 
that rethinking and getting that rethinking process going in 
the United States.
    Mr. Yoho. No, I think that is a very valid point because if 
they do that to Taiwan, who is next? Who are they going to look 
at next and say we are going to change this country? You know, 
we don't have claim to them, but they didn't have claim to the 
South China Sea or the East Sea, but they claimed it. And so 
that is what I worry about.
    Ms. Ma?
    Ms. Ma. Thank you. And building on that last point, I want 
to reiterate that developments in the Taiwan Strait are very 
closely watched by U.S. allies and friends in other parts of 
the world. So in my view, anything that is short of 
demonstrating U.S. resolve in the face of Chinese coercion and 
sharp power, and that includes failing to uphold U.S. 
commitments to Taiwan, or China, you play the Taiwan card, 
doing so would set very dangerous precedents that undermine 
long-term U.S. interests in the region.
    But on the other hand, if we reinforce the U.S.-Taiwan 
relationship, I think that could very possibly reinforce U.S. 
long-term interests in the Indo-Pacific.
    Mr. Yoho. I think that is well said and I think it is 
timely. If not now, when? As we have talked about, it is not 
going to get easier 5 years from now.
    And so, I want to tell you how much I appreciate your 
input. It was successful because members kept coming in and out 
and you didn't have to listen to me the whole time. So this 
subcommittee hearing on Asia-Pacific has adjourned.
    [Whereupon, at 3:24 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
